No.

IN THE
SUPREME COURT OF THE UNTIED STATES

WILSHAUN KING, Petitioner
VS.

MICHIGAN-Respondent(s)

PROOF OF SERVICE

I, Wilshaun King, do swear or declare that on the date of July J_3, 2021,
as required by Supreme Court Rule 29, I have served a copy of the following
Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari upon the following party(ies) required to be served:

Attorney

General of the State of Michigan, Dana Nessel, Habeas Corpus Division, G.
Mennen Williams Building, P.O. Box 30212, Lansing, Michigan 48909.
said content was deposited in the United States Mail by Prison Officials per
MDOC Expedited Legal Mailing Policy and Procedures.
I declare under penalty of perjury the following is true and correct.

Wilshaun King

i\n ta'TPM

